BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Reply to Opposition to Petition for a Writ of
Certiorari in 20-1461, Jairo Acosta, Police Officer for
the City of Los Banos v. Tan Lam, as Successor-inInterest to decedent Sonny Lam (aka Son Tung Lam),
was sent via Next Day Service to the U.S. Supreme
Court, and 3 copies were sent via Next Day service and
e-mail to the following parties listed below, this 17th
day of August, 2021:
Ayana Cuevas Curry
John L. Burris
Law Offices of John L. Burris
7677 Oakport Street, Ste. 1120
Oakland, CA 94621
(510) 839-5200
ayana.curry@johnburrislaw.com
john.burris@johnburrislaw.com
Melissa Catherine Nold
Nold Law
521 Georgia Street
Vallejo, CA 94590
(707) 644-4004
melissa@noldlaw.com

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

'

Atlante D. Pointer
Pointer & Buelna, LLP
Wells Fargo Center
1901 Harrison Street
Suite 1140
Oakland, CA 94612
(510) 929-5400
apointer@lawyersftp.com
Counsel for Respondent
Suzanne M. Nicholson
Counsel of Record
Attorney at Law
770 L Street, Suite 950
Sacramento, CA 95814
(916) 361-6551
suzanne@smnlegal.com
Dale Allen
Kevin P. Allen
Allen, Glaessner, Hazelwood & Werth, LLP
180 Montgomery Street
Suite 1200
San Francisco, CA 94104
kallen@aghwlaw.com
Counsel for Petitioner

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on August 17, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

~ gMf= /1-/ c:()d(

cfrL<tJ, ~

Notary Public

1

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
r:ehruary 14, ?. ,23

